<html>
<title> - SECOND REPORT TO CONGRESS BY THE COMMISSION ON THE NATIONAL GUARD AND RESERVES</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


                                     

                         [H.A.S.C. No. 110-43]
 
 SECOND REPORT TO CONGRESS BY THE COMMISSION ON THE NATIONAL GUARD AND 
                                RESERVES

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             MARCH 23, 2007

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13


                     U.S. GOVERNMENT PRINTING OFFICE
37-321 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                                     
                   HOUSE COMMITTEE ON ARMED SERVICES
                       One Hundred Tenth Congress

                         IKE SKELTON, Missouri
JOHN SPRATT, South Carolina          DUNCAN HUNTER, California
SOLOMON P. ORTIZ, Texas              JIM SAXTON, New Jersey
GENE TAYLOR, Mississippi             JOHN M. McHUGH, New York
NEIL ABERCROMBIE, Hawaii             TERRY EVERETT, Alabama
MARTY MEEHAN, Massachusetts          ROSCOE G. BARTLETT, Maryland
SILVESTRE REYES, Texas               HOWARD P. ``BUCK'' McKEON, 
VIC SNYDER, Arkansas                     California
ADAM SMITH, Washington               MAC THORNBERRY, Texas
LORETTA SANCHEZ, California          WALTER B. JONES, North Carolina
MIKE McINTYRE, North Carolina        ROBIN HAYES, North Carolina
ELLEN O. TAUSCHER, California        KEN CALVERT, California
ROBERT A. BRADY, Pennsylvania        JO ANN DAVIS, Virginia
ROBERT ANDREWS, New Jersey           W. TODD AKIN, Missouri
SUSAN A. DAVIS, California           J. RANDY FORBES, Virginia
RICK LARSEN, Washington              JEFF MILLER, Florida
JIM COOPER, Tennessee                JOE WILSON, South Carolina
JIM MARSHALL, Georgia                FRANK A. LoBIONDO, New Jersey
MADELEINE Z. BORDALLO, Guam          TOM COLE, Oklahoma
MARK UDALL, Colorado                 ROB BISHOP, Utah
DAN BOREN, Oklahoma                  MICHAEL TURNER, Ohio
BRAD ELLSWORTH, Indiana              JOHN KLINE, Minnesota
NANCY BOYDA, Kansas                  CANDICE S. MILLER, Michigan
PATRICK J. MURPHY, Pennsylvania      PHIL GINGREY, Georgia
HANK JOHNSON, Georgia                MIKE ROGERS, Alabama
CAROL SHEA-PORTER, New Hampshire     TRENT FRANKS, Arizona
JOE COURTNEY, Connecticut            THELMA DRAKE, Virginia
DAVID LOEBSACK, Iowa                 CATHY McMORRIS RODGERS, Washington
KIRSTEN GILLIBRAND, New York         K. MICHAEL CONAWAY, Texas
JOE SESTAK, Pennsylvania             GEOFF DAVIS, Kentucky
GABRIELLE GIFFORDS, Arizona
ELIJAH E. CUMMINGS, Maryland
KENDRICK B. MEEK, Florida
KATHY CASTOR, Florida
                    Erin C. Conaton, Staff Director
                 Mark Lewis, Professional Staff Member
                 John Chapla, Professional Staff Member
                   Margee Meckstroth, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2007

                                                                   Page

Hearing:

Friday, March 23, 2007, Second Report to Congress by the 
  Commission on the National Guard and Reserves..................     1

Appendix:

Friday, March 23, 2007...........................................    29
                              ----------                              

                         FRIDAY, MARCH 23, 2007
 SECOND REPORT TO CONGRESS BY THE COMMISSION ON THE NATIONAL GUARD AND 
                                RESERVES
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Hunter, Hon. Duncan, a Representative from California, Ranking 
  Member, Committee on Armed Services............................     2
Skelton, Hon. Ike, a Representative from Missouri, Chairman, 
  Committee on Armed Services....................................     1

                               WITNESSES

Punaro, Maj. Gen. Arnold L. (Retired), Chairman, Commission on 
  the National Guard and Reserves, U.S Marine Corps..............     3

                                APPENDIX

Prepared Statements:

    Punaro, Arnold L.............................................    35
    Reserve Officers Association (ROA)...........................    33

Documents Submitted for the Record:

    Letters from different organizations in support of H.R. 718, 
      the ``Guard Empowerment Act''..............................   119

Questions and Answers Submitted for the Record:

    Mr. McHugh...................................................   127
 SECOND REPORT TO CONGRESS BY THE COMMISSION ON THE NATIONAL GUARD AND 
                                RESERVES

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                            Washington, DC, Friday, March 23, 2007.
    The committee met, pursuant to call, at 11:05 a.m., in room 
2118, Rayburn House Office Building, Hon. Ike Skelton (chairman 
of the committee) presiding.

 OPENING STATEMENT OF HON. IKE SKELTON, A REPRESENTATIVE FROM 
        MISSOURI, CHAIRMAN, COMMITTEE ON ARMED SERVICES

    The Chairman. Our hearing will come to order.
    Today we take into consideration the second report from the 
Commission on the National Guard and Reserves.
    When Congress created the 13-member commission in the 
Ronald Reagan National Defense Act of 2005, we asked it to 
provide a comprehensive independent assessment of the National 
Guard and Reserves.
    Today before us we have the chairman of the commission, 
Major General Arnold Punaro, United States Marine Corps, 
retired, and we certainly welcome him as an old friend, as well 
as one who has done yeoman's work.
    To give a little background to our hearing, in April of 
2006, H.R. 5200 was introduced in the House. It proposed some 
significant modifications to the way the National Guard would 
be structured and how it would be resourced to fulfill both its 
domestic responsibilities, as well as its wartime missions.
    Because the provisions of that bill were so sweeping, in 
the John Warner National Defense Authorization Act for Fiscal 
Year 2007, Congress directed the commission to issue an interim 
report on the advisability and feasibility of implementing the 
provisions of that bill.
    Congress also directed the commission to look at the role 
and responsibilities of the chief of the National Guard Bureau, 
National Guard officers, National Guard equipment, funding.
    The report is before us today, and what an incredible 
effort it has been.
    Congress creates these commissions when we do not possess 
the in-house resources either in expertise or in time to pursue 
complicated matters as thoroughly as needed and that is what 
the commission has done for us.
    This commission, its excellent staff has really gone above 
and beyond the call of duty. They have been tireless in their 
endeavors. They have held hearings, hearing after hearing, 
actually consulted hundreds of experts and they have traveled 
as necessary to get the ground truth and they have done the in-
depth historical and legislative research needed to fully 
understand the second and third order issues surrounding each 
proposal.
    They have done all that because they are true patriots who 
have answered their government's call and also because they 
understand the importance of this issue.
    So much of our national security hinges on the National 
Guard and Reserve force. This could be to support the fight 
alongside our active duty forces overseas when the drums of war 
sound or it could mean first on the scene of some domestic 
emergency, such as Hurricane Katrina.
    That is easier said than done. These are not just issues of 
manning and training and equipping in the guard for its dual 
role, but also how the Nation postures itself to meet 
challenges facing our homeland, how the Department of Defense 
and Department of Homeland Security will jointly work together 
is so important, because our men and women in the Guard and 
Reserve are citizen soldiers in the proud tradition of the 
minutemen and of the militia of yesteryear and the employers 
who support them do all that we ask of them so well.
    They deserve to have the best support structure possible. 
These are complex questions and it is appropriate that in 
addition to answering the statutory requirements to address the 
provisions of that bill, H.R. 5200, the commission's report has 
taken a broader look at six focus areas: the Defense 
Department's role in homeland, the role of the states and their 
governors, the National Guard Bureau, U.S. Northern Command, 
reserve policy advice, and reserve component officer promotion.
    In just a moment, I will turn the floor over to Chairman 
Punaro, and we will look forward to hearing the commission's 
recommendations. We should all listen very closely to what he 
has to say, because it is a profound and thorough work product.
    However, I first call on my friend, the ranking member, the 
gentleman from California, Mr. Duncan Hunter.
    Mr. Hunter.

    STATEMENT OF HON. DUNCAN HUNTER, A REPRESENTATIVE FROM 
    CALIFORNIA, RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Hunter. Thank you, Mr. Chairman, and thank you for 
calling this very important hearing.
    Mr. Chairman, given the significant issues that we face 
regarding matters of homeland defense, homeland security and 
the role and resourcing of the National Guard in both those 
missions, this is a very, very important hearing.
    Furthermore, just as we are faced with significant issues 
of resetting and sustaining both the Army and the Marine Corps, 
this committee also must address how to sustain and reset the 
National Guard and other reserve components for their wartime 
missions.
    And I want to join you in welcoming General Punaro and 
thanking him for his great service to this country and just 
say, preliminarily, Mr. Chairman, that the story of the guard 
in the operations in Afghanistan and Iraq is a story, in my 
estimation, a story of success.
    I can remember the days of Vietnam when there was a major 
divide between the guard and the active forces and that divide 
was one that resonated throughout America that there were, in 
fact, two separate forces. There was one force that went to 
war, that was the active force, and there was a force that 
didn't go to war, and that was the guard.
    In fact, I can remember having conversations with my great 
friend, Mr. McHugh, over the naming of the subcommittee, the 
personnel subcommittee, and naming it the total force 
subcommittee, because under his watch and under the present 
operation, we truly have a total force.
    And so watching, Mr. Chairman, coming back from the 
warfighting theater in Iraq and looking at the guard and its 
operations and its meshing with the active forces, this is a 
story of success.
    But nonetheless, it is a story that we have to build on and 
I look forward to hearing the testimony from General Punaro and 
figuring out what good, basic, practical things we can do as a 
result of this great work by the commission that will make the 
guard even better, even more prepared to be beat both the 
homeland mission and this mission that extends American 
military power around the world to carry out our foreign 
policy.
    So thanks for having this hearing this morning. It is very 
timely and I look forward to the testimony.
    The Chairman. I thank my friend from California.
    Let me also state that we have the written testimony from 
the Reserve Officers Association, and, without objection, we 
will put that into the record.
    [The prepared statement of the Reserve Officers Association 
can be found in the Appendix on page 33.]
    Major General Punaro.

 STATEMENT OF MAJ. GEN. ARNOLD L. PUNARO (RETIRED), CHAIRMAN, 
  COMMISSION ON THE NATIONAL GUARD AND RESERVES, U.S. MARINE 
                             CORPS

    General Punaro. Thank you, Chairman Skelton, Ranking Member 
Hunter, members of the committee, for the privilege of 
presenting, on behalf of my fellow commissioners, the findings 
and recommendations of our March 1 report that related 
specifically to the National Defense Enhancement and National 
Guard Empowerment Act.
    This is the work of 13 dedicated commissioners and a superb 
staff and I particularly want to thank the chairman and Mr. 
Hunter for your superb appointments to the commission, who 
stayed in close touch with the committee and have been the 
mainstay particularly of our work on the homeland defense and 
on the equipping areas that we are going to address here this 
morning.
    Mr. Chairman, I would ask that my written testimony be 
submitted for the record and instead will offer a brief oral 
summary, if that is okay with the chairman.
    The Chairman. Yes, please proceed.
    General Punaro. First, the commission, we thank the men and 
women in uniform, particularly those in harm's way, for their 
sacrifices, particularly the 590,000 Guard and Reserve 
personnel that have been mobilized since 9/11 and, in addition, 
the tens of thousands of Guard and Reserve personnel that have 
served here at home in that same timeframe and that continue to 
serve here at home.
    So I would like to start by making some bottom-line 
observations up front.
    The problems: Mr. Chairman, we wanted to spend most of our 
time in this report looking at making sure that we had 
identified correctly the problem set. It was our thinking that 
if we could get agreement and consensus on the problems, that 
solutions would flow that would make sense.
    We have some recommendations about how to fix the problems. 
Members of this committee testified before the commission. 
Certainly, Congressman Taylor and the other principal sponsors 
of the Empowerment Act have some great ideas and it is our 
judgment that we are not hung up about whose solution gets 
implemented.
    We think these are very, very serious, enduring problems 
that need to be fixed and we know, in the wisdom of the 
committee, you will come up with even better ideas than we had.
    Let me talk first about the operational reserve, because I 
think that is kind of fundamental.
    You hear Department of Defense (DOD) testify that we no 
longer have a strategic reserve, a reserve that was designed 
and planned and manned and equipped for the peak of the Cold 
War, if the Soviet Union and the Warsaw Pact came across the 
Fulda Gap in the inter-German border, they would be called up 
and have timelines to deploy that were months, even years, in 
some cases. That was the strategic reserve and they were kept 
at very low readiness levels in terms of personnel and 
equipment.
    The department has said and I have mentioned 590,000 have 
served and deployed to Iraq and Afghanistan and other 
contingencies. They are an operational reserve. That is a 
fundamental change in the nature of our Guard and Reserve that 
is being used.
    However, DOD has not changed any of the fundamentally 
underlying laws, policies, rules, regulations, procedures, 
processes, funding priorities, personnel management systems to 
make it an operational reserve.
    You cannot just sit here at this microphone as DOD 
witnesses have said and say it is an operational reserve, 
sprinkle some pixie dust and it makes it happen. That is why we 
are in the serious problems that we are in today.
    They have declared it to be operational, but we have not 
made any of the fundamental changes to put that in place.
    So the commission has concluded, on that broader front, 
this operational reserve is neither right now feasible nor 
sustainable unless we have fundamental underlying changes to 
the laws, rules and regulations and policies.
    Let me give you some examples just on the readiness front. 
These are not examples that are not unknown to this committee, 
to your subcommittee, your chairs and rankings of your 
subcommittees, who have spent a tremendous amount of time over 
the years looking at the readiness.
    We were, frankly, unpleasantly surprised at how bad off we 
are on the readiness front. It is a lot worse than we would 
have anticipated. It is a lot worse, I think, than a lot of 
people know.
    Army National Guard readiness is extremely. As General Blum 
has testified, 88 percent of the guard units here in the United 
States right now are below in the warfighting readiness 
measures. We know C-1 to C-5, C-1 being fully combat ready, 
good to go right now, once you get to C-3 or below, that is not 
good, 88 percent.
    When he testified before our commission, we are not ready. 
When we put that out in our March 1 report and I was walking 
the halls of the Pentagon, I got tackled by a couple of four-
star generals and admirals and saying, ``Holy smokes, this 
can't be right. You are not asking the right questions. These 
numbers are wrong. They can't be that bad. And ready for 
what?''
    So before coming here today, Mr. Chairman, I wanted to make 
sure that we were exactly accurate on what we reported on March 
1, so we got the experts, sat down with them, just as your 
staff has done with the Government Accountability Office (GAO) 
and others, and I can tell you today the guard is less ready 
than the 88 percent.
    It has gotten worse in the three weeks since we issued our 
report, not better. We don't see the trend going up. We see the 
trend going down. And I think that is the same testimony that 
you have been receiving.
    The Air Guard is also at a historic low. Readiness levels, 
45 percent or C-3 and below, and that is a historic low.
    It is a very important point here. This only measures 
readiness for the overseas warfighting mission. Our Department 
of Defense does not assess readiness for the homeland mission.
    So we don't know if they are ready for the homeland, 
because they don't measure that. And so this is a very, very 
important fact that has got to be changed.
    That is particularly worrisome, because unlike the overseas 
mission, where, if a National Guard brigade or a Marine 
infantry battalion of Army Reserve truck company is going to be 
called and mobilized, even if the unit is short on personnel 
and equipment, they have got a mobilization time to bring in 
additional personnel and equipment, to train that unit up and 
then deploy them overseas.
    That is not the case here at home. Homeland scenarios, it 
is come as you are. It is you have got to be ready right now. 
And the fact that we have the first three guard brigades that 
went to Iraq, that have been back since 2005, two years later, 
they are still C-4 for equipment.
    And even though we have promises of large funding in the 
budget to repair these things, the out year, in other words, 
the get well figure for combat for the guard is 2015, the get 
well for their combat support is 2020.
    I don't think that is acceptable with the kind of threats 
we deal with here at home.
    So the point is here that DOD has not fully accepted and 
taken ownership of its role in protecting the homeland. Unlike 
the DOD strategy says, it is not the first among many DOD 
priorities and one of the reasons is because we have a 
fundamental flaw in the system.
    No one, no one currently generates or validates civil 
support requirements within either the Department of Defense or 
the Department of Homeland Security (DHS). The Department of 
Homeland Security, under the law, has the obligation to do 
this.
    They are not doing it. Therefore, DOD has nothing to work 
on and validate whether that is sufficient or not.
    So without these requirements, even if you had electricity 
in the power line and even if you had a good light bulb, you 
flip the switch, the bulb isn't going to come on, because in 
the Department of Defense, if you don't have a requirement, 
nothing happens.
    This has got to be corrected. We have got to basically 
ensure that the people responsible for generating these 
requirements do so and then the Department of Defense needs to 
take them and validate them and those that are validated need 
to be prioritized and funded.
    The Northern Command, the command that was established 
after 9/11, mind you, after 9/11, to focus homeland missions, 
is still focused on traditional missions and it does not 
adequately consider or utilize all the military components, 
including the active and reserves and the guard in the 
planning, training and exercising for homeland missions.
    And that is because it is primarily an active duty command, 
90 percent of its personnel are active duty, very few are Guard 
and Reserve. The leadership is active duty and they don't know 
what they don't know. They are good people, they work at it 
hard, but their focus is very, very prescribed by the 
Department of Defense and they are not focused on the factors 
in homeland that they should be.
    The governors, the commanders-in-chief of most domestic 
incidences, do not have enough of a voice in policy-making with 
regard to the guard and operations in their states.
    Our government, our Federal Government has told the 
governors, ``You are in charge, you are responsible. We hold 
you accountable to deal with emergencies in at least the first 
72 hours.''
    That is a fundamental principle of emergency management. 
You handle it at the lowest level possible. ``But, please, Mr. 
Governor, don't come to Washington and give us your views. 
Don't tell us what you need, and we certainly aren't going to 
take those factors into account when we are making decisions.''
    So, again, another fundamental break. We have got to give 
the governors more authority and more clout to carry out the 
missions that we have told them they are responsible for.
    The Nation's ability to respond to a major domestic 
catastrophe is not well coordinated, particularly at the 
interface between the state and federal levels. Department of 
Homeland Security has identified 15 planning scenarios that the 
Nation needs to be ready for from major disasters like 
hurricanes or fires to unthinkable weapons of mass destruction, 
chemical and biological.
    However, because they have just identified them and we 
haven't engaged the entire system in planning, coordinating and 
funding and training, putting plans together for dealing with 
these, the Nation is not adequately prepared for some, not 
fully prepared for some, and absolutely totally unprepared for 
some of the worst case scenarios, and that also is an 
unacceptable situation.
    The National Guard plays a key role in fixing these things, 
but should not be saddled with the lead in coordinating this 
effort. That is a role that both Congress and the President 
have decided belongs to the Department of Homeland Security. 
They ought to either do their job or somebody ought to just 
shut them down and admit it is not going to happen and make 
other arrangements.
    But they should be held accountable right now under the law 
for fulfilling their mandate.
    Mr. Chairman, these are longstanding problems that require 
fundamental reforms to a number of our institutions of 
government. This is not about one individual, the chief of the 
guard bureau. This is not about one institution, the National 
Guard.
    This is about empowering the National Guard and giving them 
greater authority and clout as part of an integrated team, as 
part of a total force team that includes Northern Command, the 
Department of Defense, Department of Homeland Security, the 
governors, and breaking down all these barriers and stovepipes 
and ensuring that we bring a fully integrated, fully capable 
team to protect the lives, the property and our economy here at 
home.
    So we believe our recommendations are far more sweeping 
than the solutions proposed in H.R. 5200. You need to do more 
than just empower the National Guard. No question about it. But 
you could make the head of the National Guard a five-star 
general and if you don't fix Northern Command, the Department 
of Homeland Security, the Department of Defense's procedures 
for dealing with homeland security, he or she is not going to 
be effective in that job.
    So all of these agencies and institutions of government 
must take greater responsibility for building a coherent and 
competent interagency process of planning, coordinating and 
funding for the homeland mission and the governors must be 
given a more prominent role in implementing that mission.
    So we aim, Mr. Chairman, for true integration of the 
forces, including promoting the goals of jointness set out in 
the landmark Goldwater-Nichols Act. We believe our 
recommendations would, if implemented, promote organizational 
relationships that would enhance the National Guard's ability 
to fulfill its mission both overseas and here at home and offer 
a comprehensive, systemic approach to problems of readiness, 
equipping and manning of the Guard.
    Our report lays out 26 findings, 6 broad conclusions, and 
makes 23 specific recommendations, most of which can be 
implemented without legislation.
    Mr. Chairman, I could really stop here at this point, 
because you have got all our recommendations and the report 
before you, and quit here and take your questions or give a 
quick summary of those.
    I am ready for questions.
    [The prepared statement of General Punaro can be found in 
the Appendix on page 35.]
    The Chairman. I will ask one question and then ask the 
ranking member to proceed in order.
    Your comments regarding preparedness, regarding readiness 
are downright frightening and you could say a similar vision is 
out there regarding our active duty counterparts.
    Where do we first fix the lack of readiness for the Guard 
and Reserve?
    General Punaro. Mr. Chairman, obviously, as you pointed 
out, the active forces have some equipment and personnel 
shortages, as well.
    However, as I pointed out in my testimony, when you are 
talking about deploying to Iraq and Afghanistan, even on the 
active side, they have spin-up cycles and train-up cycles.
    And you know the Department of Defense as well as I do. 
They are not going to send units overseas that they don't 
believe to be fully combat ready.
    I believe, however, the reverse is true for the homeland. 
Nobody is paying attention to the fact that we are unready to 
deal with these missions here at home.
    So I would have the Department of Defense working with the 
Department of Homeland Security. Get the General Accounting 
Office in there. They have got some of the best readiness 
people that I have seen in all the years I have focused on this 
in looking at what the problems are.
    I know they have talked to your subcommittee chairmen and 
ranking members. And I would look at the requirements here at 
home and make sure we have sufficient Guard and Reserve units 
that are going to be the first responders to deal with these 
situations here at home.
    I would fix that first, because with the units deploying 
overseas, you have got a spin-up time for them. You don't have 
any spin-up time to deal with these emergencies here at home.
    We don't have some of the ready battalions and ready forces 
that we used to have on standby to deal with this. They are not 
in a situation now, because of our overseas commitments, to be 
as ready as they need to be.
    The Chairman. Mr. Hunter.
    Mr. Hunter. Thank you, Mr. Chairman.
    General, thank you and thanks for your great work. And I 
did get a chance to talk with lots of the members of the 
commission as you walked down through this analysis and it has 
been excellent.
    Let me go to a couple of things here. One, last year, in 
late spring, the Army and Marine Corps came over to see me and 
they told me that they were going to be, believe it or not, 
some $20 billion short in terms of reset money.
    And so we directed our staff to come in, analyze how much 
of the reset, of their shortages were embedded in the base 
bill, how much was embedded in the supplemental bill and how 
much was embedded in the bridge fund for last year.
    We added that up and we took the delta, we took what the 
Army and Marine Corps testified they needed, by golly, to reset 
every single piece of equipment that they knew about in the 
world that belonged to them.
    And I directed the staff at that point to fund every dime 
and we funded every single dime and I think the Army was $17-
point-something billion short and the Army made up the balance 
between that and some $20 billion and I think, in the end, we 
actually added several millions of dollars to their total 
request.
    We didn't short them one dime. Now, we now have that in the 
pipeline and we have gotten after the Army on several occasions 
with respect to how much they had obligated.
    What they have responded to our questions with respect to 
how much they have obligated and how much they have done is 
this--one thing they say they need, and the Marine Corps joined 
in this, is that they need carcasses. That is, if you don't 
have the old Humvee to renovate or the old Bradley or the old 
tank because it is still in theater, you can't renovate it 
because it is still in the warfighting theater.
    But the second thing that has come back from the Army is 
that they took care of the guard in this reset.
    Now, I want to simply ask you, are you telling us in your 
testimony that basically when they gave us this reset number, 
of which we funded every single dime that they asked for, that 
they totally missed the guard?
    General Punaro. No, sir.
    Mr. Hunter. Well, what happened?
    General Punaro. There are two things here. One is the 
Status of Resources and Training System (SORTS) readiness 
rating measures the day's warfighting readiness. It measures 
the units on hand, personnel and how well those people are 
trained in their skill set.
    It measures on-hand equipment and whether that equipment is 
ready. It measures supplies, whether you have your ammunition, 
and it measures training readiness.
    In terms of money that is put in the procurement pipeline, 
particularly for reset, as you know, it takes, on average, five 
years for a procurement dollar to spend out.
    So in terms of what has been put into the budget for the 
Army Guard and for some of the other components, there has been 
a substantial increase, particularly at the initiative of the 
Congress, for money in the reset pipeline.
    In the budget that was submitted to the Hill this year, 
particularly in the Army, there is a substantial increase in 
funding for equipment not only for the active duty forces, but 
for the Guard and Reserve.
    However, what we point out in our report, Mr. Hunter, is 
that we have seen this all too often. We have a chart on page 
35 that looks at what was projected in the future year defense 
plan and then what actually gets executed.
    And so the reason the Guard and Reserve are always so 
nervous is it is always promises, promises. However, I think 
there is a greater awareness both in the Congress and in the 
Department of Defense of the readiness deficiency.
    So I would expect to see the equipment, but as I pointed 
out, the guard doesn't get well until 2015 for combat and 
doesn't get well until 2020----
    Mr. Hunter. Well, General Punaro, the $20 billion that we 
put in, that I directed the staff to put into our bridge fund 
was an authorization for a supplemental, which was, by golly, 
signed by the President and funded.
    That is not money that was in the Future Years Defense 
Program (FYDP). That is 20 billion bucks, cash on hand, that we 
put in our budget that was followed by the appropriators and 
followed by the Senate and ultimately signed by the President, 
and that money is available to be obligated.
    And one thing that is somewhat frustrating is we asked them 
for every dime. They came in with every dime. We then we put 
that--we then subtracted out what we had already funded, 
embedded in the base bill, and we came up with a balance of $20 
billion and we funded every dime.
    And you are telling me now that we actually missed major 
pieces of this funding. And so my question is, do you think the 
Army shortchanged the guard or do you think the guard at that 
point didn't have their arms around everything that they 
needed? Because the clear impression was given this committee 
is, ``This is what we need.''
    General Punaro. Mr. Hunter, I don't think anyone is able to 
identify the requirements for homeland mission, because they 
don't do that in the Department of Defense and the guard 
doesn't do that.
    So whatever they identified, that $20 billion is for the 
warfighting mission and I would expect that money to spend out 
over a period of years, and the readiness will improve as the 
new equipment comes in there for the overseas warfighting 
mission.
    As you well know, there is no warehouse out there or 
parking lot with seven-ton trucks that you can go out and buy 
off the shelf. You are probably 2 to 3 years for that $20 
billion.
    But there is no requirement for civil support. So there is 
no way the guard could have identified that for you.
    Mr. Hunter. Well, let me go now to the equipment. As the 
guard has gone over, and I have talked to a number of guard 
commands that have gone over, they have shed the equipment that 
they had in Kuwait and taken on the new equipment.
    So that they went into Iraq with what you would call the 
top end and then a number of them said they came back without 
equipment, the implication clearly being that there is 
equipment parked in places like Kuwait or in Iraq.
    Now, if you look at the up-armored Humvees, common sense 
tells us we have now--if you look at the number that we have 
introduced into theater, it is something like, Army and Marine 
Corps combined, I believe it is in excess of 20,000 vehicles at 
this point.
    So if you have got 20,000 up-armored Humvees, that is the 
M114s, those have displaced in units and, similarly, MAC-kitted 
Humvees that went to the Marine Corps early on have displaced 
the non-up-armored Humvees.
    Now, if we were a company and you were the CEO and you had 
somebody that said, one of your procurement officers had said, 
``I want to buy another 20,000 Humvees because we are short,'' 
the first thing you would say is, ``Well, what happened to the 
25,000, some of which had very few miles on them, that were 
displaced by up-armored Humvees on the basis that the 
battlefield conditions required up-armored Humvees?''
    One thing that we haven't got a handle on is how many of 
those 25,000 Humvees that have been replaced in Iraq, how many 
of those are still there, how many are in Kuwait, how many have 
been moved back.
    So one thing that I think we need to do is get a handle on 
this equipment that has been displaced by new equipment or 
equipment that was needed to accommodate the battlefield. Where 
is it?
    Now, we found out that there are 1,800 MAC-kitted Humvees, 
which are outstanding vehicles. In fact, they have got more 
armor on the sides than the M114s that are parked at a certain 
location in Iraq, 1,800 of them.
    So I think that one thing we have to do to make sure that 
the guard gets full-up is to, first, find out how much stuff we 
have got and find out where the excess systems that have been 
displaced on the battlefield, where they are parked.
    Unless somebody has got a program that gives these things 
away at a dime on the dollar to some other country, we should 
have 25,000 displaced Humvees, minus maybe 5 percent or 10 
percent battle losses, but they should be inventory someplace.
    Do you not agree with that and do you not agree----
    General Punaro. You are absolutely----
    Mr. Hunter. Do you not agree that that would be good for 
the guard if we find them?
    General Punaro. Yes, sir, and I would hope the guard 
wouldn't be up here asking for $20 billion of the taxpayers' 
money if they knew they had 10,000 Humvees sitting over in 
Kuwait that they could bring back.
    Mr. Hunter. I asked General Blum last year, I said, 
``Before we figure out what we have got to have, let's find 
out, because he told me we are shedding equipment in Iraq and 
we are not bringing it back and our guys are coming back 
without equipment.
    Therefore, when the C rating comes along, we are low end. 
And I asked him if there was a way to ascertain what we have 
parked in theater and, as I understand it, at this point, we 
don't really have our arms around that.
    Don't you think we have got to get our arms around that?
    General Punaro. Yes, sir. That is one, I will tell you, 
again, I would sic the GAO on that. They have some people on 
this readiness stuff that is the best I have seen in all my 
years that I have worked at it and they could figure it out.
    I mean, you have governors whose brigades have come back 
and they have been told they aren't going to get any equipment 
for four years. Well, we all know that is unacceptable.
    If there is equipment over in theater that could be brought 
back that would give them even 10, 15 or 20 percent of the 
equipment, particularly the kind of equipment you are talking 
about, it is very useful in these dual use situations.
    Mr. Hunter. Well, similarly, we have got the ballistic, the 
Small Arms Protective Inserts (SAPI) plate body armor, which 
now has--we now have almost a million sets of SAPI body armor 
that is bullet resistant. We had virtually none six years ago.
    We now have a million sets. Now, what that tells us is we 
have displaced all of the regular body armor that we had before 
that did not have the SAPI plates, that was basically frag 
resistance, but not bullet resistant.
    That obviously has value and it weighs a lot less and it is 
still an effective body protection system.
    That means we have displaced 500,000, 600,000, 700,000 sets 
of vests. I think we need to find out where those are, don't 
you?
    General Punaro. Yes, sir.
    Mr. Hunter. Mr. Chairman, I think this is a major role for 
this committee is to find out where these tens of thousands of 
pieces of equipment that we know existed, we know they were 
replaced by equipment like the 114s that were needed with the 
armor to combat roadside bombs in Iraq, we know some of the 
systems that were displaced were almost brand new when they 
were displaced and they have got to be somewhere.
    And I think that it is incumbent upon us to find out what 
we have got in inventory.
    And then I would submit this, General, a question to you. 
Let's say we come up with what we have got. We get an inventory 
on what we have parked in theater, how much is parked in Kuwait 
and how much is the units that came back simply don't have a 
handle on, let's retrieve an inventory of all the equipment 
that we have got or at least retrieve the numbers on that 
inventory.
    Let's figure out where we are short on what it is going to 
take to make the guard full-up and then let's pass a 
supplemental, just like we did last year with the $20 billion 
for the Army and Marine Corps, and full-up the guard.
    Do you think that would solve the problem?
    General Punaro. No, sir, because I think you are going to 
find a lot of that equipment is unusable.
    Mr. Hunter. I know I am assuming--but, General Punaro, I 
disagree with you. You have got some brand new Humvees that 
were replaced in theater simply because they did not have the 
level of armor that is necessary to combat roadside bombs.
    Those pieces of equipment, those Armor Survivability Kit 
(ASK) Humvees were not taken out of service because they 
weren't outstanding vehicles. They were taken out of service 
because they didn't have armor on them.
    So they are parked somewhere, unless we have given them 
away to some country for a dime on the dollar, and there are 
20,000 of them. So let's not say they are unusable.
    General Punaro. No, but you said, ``Would that fix the 
problem?'' The problem is----
    Mr. Hunter. No, no. My question is if we figure out what we 
have got, if we figure out what we have got in country and what 
we have got parked and what was shed from these guard units and 
may be sitting in a compound someplace in Kuwait and we make 
sure we have got a handle on what we have got and then we 
figure out what the delta is, what we are still short, why 
can't we do the same thing we did for the active guys last 
year, which is to figure that down to the last dime and pass a 
supplemental like the $20 billion that we authorized in this 
committee last year and get the money and spend it and make the 
guard healthy sometime while we are still young?
    General Punaro. That sounds like it would certainly be 
helpful. But, Mr. Hunter, the shortages are across the board. 
They have shortages in their combat engineer equipment. They 
have shortages in their medical equipment.
    Mr. Hunter. I am talking about combat engineer equipment.
    General Punaro. Radios. I doubt seriously if there are any 
retrievable command and control gear over in theater.
    Mr. Hunter. So my question to you is, if you are short on 
radios and you don't have a bunch of radios stacked up in 
inventory, then you buy lots of radios.
    But I am saying we find out what we have got. I mean, the 
dumbest thing in show business would be for us to go out and 
buy 25,000 Humvees and we find out we have got 25,000 Humvees 
parked in theater in various lots with between 5,000 and 10,000 
miles on them.
    I think you would agree with.
    General Punaro. No downside to doing what you are 
suggesting, but it is not going to help the homeland security 
mission, because they don't have any requirements for that. 
They don't know what they need.
    Mr. Hunter. Okay. Let me go to homeland security for one 
minute.
    You had the great Captain Wade Rowley, who was one of your 
members, who was a captain from a logging family in Oregon who 
came down and built the border fence for us and knocked back 
the smuggling of illegal aliens and narcotics in San Diego.
    When he brought these units in, when he would rotate in 
guard units from Missouri and lots of other states to build the 
border fence to stop the drug trucks from coming in, they 
generally fell in on rented equipment. Right?
    So if you may have a guard unit, the guard units that came 
in, for example, from other states, often, of you had rated 
them as they were in transit, you would have rated them at C-4, 
because they didn't have their bulldozers, they didn't have 
their water trucks, they didn't have that kind of stuff.
    Because you have a domestic inventory here, they rented the 
equipment and fell in on rented equipment so they didn't have 
to move it halfway across America. They fell in on the rented 
equipment at the site of their operation.
    Now, is it your feeling that we should continue that type 
of thing or that these units should be full-up with respect to 
organic equipment for the homeland mission?
    General Punaro. This is a key point that you bring up and 
this is one of our key recommendations.
    We need to identify the gaps in the Department of Homeland 
Security, working with the Guard Bureau, working with DOD, 
working with the Federal Emergency Management Agency (FEMA), 
working with the Centers for Disease Control and the other 
domestic civil agencies that have a role in all of these 
scenarios, they need to sit down and say, ``Okay, for this 
particular planning scenario, what do we have on hand, what can 
we get off the civilian economy, what does the military have 
that they can bring to the fight, identify the gaps.''
    First, identify the requirements. Nobody has done that, so 
we don't know that the requirement are. It is hard to say what 
the gaps are when you don't know what the requirements are.
    So identify the requirements. Then identify the gaps and 
then have a plan and coordinate a plan for where you are going 
to go get what you need.
    This is, I think, one of the real failings of the Northern 
Command (NORTHCOM), is they have some contingency plans and, by 
definition, a contingency plan is a 50,000 foot level plan, not 
an implantation or an operational plan.
    For the defense of the Korean Peninsula, we have a plan 
that every unit in the military knows who they are, where they 
go, what piece of gear they bring, and as those units are 
basically pulled out of that plan and put somewhere else, they 
put another unit in there, so you have a full-up round.
    None of that happens on the domestic homeland front. There 
are no plans. And the Northern Command plans are for when it 
is--when there is catastrophic failure by the state and local, 
that is when NORTHCOM rolls in. We think that is a very silly 
way to plan.
    We ought to get the whole Federal Government, state and 
local on the same sheet of music, on the same team up front and 
determine who brings what to the fight and then you will know 
and will determine how many of those civilian bulldozers could 
be used and by whom, and then that way you will know.
    That is the only way this is going to work. You can't 
basically say, ``We are going to grab a little here, we are 
going to grab a little there.'' It is a come as you are 
situation.
    Mr. Hunter. But the base question, in your heavy equipment, 
such as your construction battalions and your engineering 
battalions, when you need things like bulldozers, water trucks, 
graders, et cetera, is it your position, as a matter of policy, 
that we should have that organic to the units or that, as a 
matter of policy, you should rely on systems that you can rent 
from the domestic economy, like they are doing in these civil 
works projects like the border fence right now.
    General Punaro. If that is a unit that has an overseas 
warfighting mission that requires that piece of equipment, they 
should have it organic to the unit and, by the way, it has----
    Mr. Hunter. But I am talking about not an overseas 
requirement, but a requirement that you can see is a domestic 
requirement, like the construction of the border fence.
    Obviously, if you are going to be deployed, you have got to 
have the equipment, you have got to train on it, et cetera.
    General Punaro. If they get a domestic requirement and they 
validate it and they determine that getting it off the local 
economy is the smartest way to do it for the taxpayers and it 
is going to be available when they need it, yes, I would say 
that would be the preferred method.
    But we don't know whether that is the preferred method now 
or not, because we don't know what the requirements are and we 
don't know what the gaps are.
    That is the whole purpose of getting state, local and 
Federal all on the same sheet and determining who is going to 
bring what to the fight.
    Mr. Hunter. Well, I think it makes sense to make that 
analysis and get all these parties married up and integrated 
and talking to each other and get this done.
    And I think what we have to do at this point, General, is 
find out, doggone it, what do we have in theater and what do we 
have that has been displaced by these fairly massive purchases 
that have gone to the active side and, in some cases, replaced 
almost new equipment, where is that new equipment and can we 
make it available to the guard, and I think that is a 
preliminary step that has got to be made.
    Second, Mr. Chairman, I would simply say this--we were 
given a number by the active Army and the Marines last year. We 
funded every dime that they said they needed.
    I take it that the net result of your description of 
shortfalls ultimately translates into dollar requests. You have 
got to spend money to get this stuff. I think we ought to spend 
the money that we need to get this stuff.
    First, let's find out exactly what we need so we don't 
replace a bunch of stuff that we have got parked somewhere, but 
then let's spend what it takes to get it and if we have to come 
up with a supplemental this year that we bolt on to the base 
funding bill, let's do it.
    Thank you.
    The Chairman. I thank the gentleman for his questions.
    General, it is interesting and we are pleased to see Jim 
Schweiter, who, as your general counsel, I know has done yeoman 
work for you, but he did that for us as minority counsel, and I 
wish to recognize him for his present, as well as his past 
efforts. A real patriot. We thank him for his efforts.
    [Applause.]
    Mr. Ortiz.
    Mr. Ortiz. General, thank you so much for the work that you 
do with the commission and we have worked with the National 
Guard, the reserves.
    At one time, I was a member of the reserves. But we just 
need to spend more time and try to see how we can help you.
    And I have been spending some time with the National Guard 
and some of the reserve units and I know that since that money 
was given to you to buy, through the commission and through the 
National Guard, to buy that equipment, a lot of equipment has 
been destroyed. A lot of equipment has been damaged.
    And I went to visit a couple of reserve units and National 
Guard units and they just returned from Iraq and after I met 
with them, I wanted to see the equipment. Well, there was no 
equipment. The equipment was left in Iraq so that the active 
military duty could use the equipment.
    I think it is hard for you to do your best to serve two 
masters, the Federal Government and the state governors, and 
sometimes I wonder how you train, because you have to train to 
go to Iraq to fight a war and then you have to train to respond 
to natural disasters, flooding, hurricanes, fires.
    Not only that, then most of the first responders who either 
work for the city or are police officers or doctors or nurses, 
they are activated and they leave. So you are left there with a 
vacuum.
    We need better lines and I do believe that you all need a 
four-star general to be equal with the active military, because 
you guys have a lot of ideas that maybe we don't know about.
    NORTHCOM, I think the other day we had a lot of questions 
about NORTHCOM. One of my fellow members wanted to know what do 
you do. This is why I say that we will not be able to answer 
all these questions today, but we need to spend more time with 
you and see how we can help you.
    I know money was given to you, but I know that at least 40-
50 percent of the National Guard and Reserves have been 
activated and a lot of that equipment has been going to Iraq.
    So I know the last count we had was that at least 7,000 
pieces of equipment that belongs to the National Guard were in 
Iraq.
    We want to help you. We want to work with you. I think that 
maybe we should have follow-up meetings to see what we can do.
    But one of the questions, how do you get to train for two 
different missions? Now, I know we are in a war right now. You 
have got to train for that mission and sometimes you get there, 
you don't have the equipment, you don't train with the 
equipment.
    You get to Kuwait. That is where you train or you get to 
Iraq and then that is when the equipment is given to you.
    But then you have a different scenario, a different 
responsibility. We have had flooding, we have had fires. How do 
you train for this? How do you keep these people trained, 
focused on the mission that they have at hand?
    Maybe you can enlighten me a little bit on that, General.
    General Punaro. Mr. Chairman, you have really hit the nail 
on the head there. First of all, the commission agrees with you 
that the chief of the National Guard Bureau should be elevated 
to four-star.
    If the Congress determines that the duties he is currently 
doing are the ones that he is required to do and adds that to 
his charter, that would give him greater clout in the system, 
greater authority, and it would recognize the tremendous 
contributions that the guard is making today that aren't 
actually embedded in their statutory charter.
    So we strongly support that. Northern Command, again, you 
hit the nail on the head. They are not focused sufficiently on 
the back home missions. They are too focused on traditional 
missions and they are the ones that should be identifying the 
requirements for civil support and bringing those to the 
Pentagon, into the Joint Requirements Oversight Council, and 
arguing vehemently that we need this equipment to do our 
missions here at home.
    And third, how do you train? You don't. That is the 
problem. The Department of Defense has traditionally taken the 
position that if we are ready for the overseas warfighting 
mission, for example, if we can take an M1A1 Abrams common tank 
into battle, then, by goodness, our troops are ready to 
basically do security duties or hurricane and flood duties here 
at home.
    The commission believes that is a flawed assumption. There 
is ample testimony not only from senior military officials that 
that doesn't work anymore, there is concrete evidence from 9/11 
and from Katrina that that doesn't work.
    And so this is why we think the identification of the 
requirements for civil support are so fundamental. Everything 
in the military flows from requirements. Equipment flows from 
requirements, training flows from requirements.
    Since the Department of Defense has not identified 
requirements for the civil support mission, they don't have 
mission essential task lists that our military trains against 
for those missions.
    For example, when we call up an artillery battery in the 
Marine Corps Reserve to go to Iraq as military police, we don't 
just send them over there. We retrain them as military police.
    So it is logical that an artillery person is not going to 
be able to do a lot of the homeland missions. So you hit the 
nail on the head. But it starts with requirements.
    Mr. Ortiz. Thank you. My time is up, but thank you so much.
    The Chairman. Major General, you were describing what 
happened in Missouri regarding their former artillery National 
Guard brigades.
    Special recognition to Karen Heath. You know, it is 
interesting what we have provided your commission from this 
committee. When I was chairman of the personnel subcommittee, 
Karen Heath was such an integral part of it and we loaned her 
to you for your excellent work, along with Jim Schweiter.
    So, Karen Heath, great to have you back.
    [Applause.]
    Mr. McHugh.
    Mr. McHugh. Thank you, Mr. Chairman.
    General, welcome, thank you, as my colleagues have said, 
for your and your colleagues' efforts.
    I had the opportunity, the honor of testifying before you, 
along with then Chairman Hunter, and to see your efforts 
through all of that and the output of it is very impressive and 
very helpful and I thank you for that, as we all do.
    I want to return, for the few moments that I have, to the 
comments from my friend from Texas. You just noted about the 
commission recommendation to elevate the head of the National 
Guard Bureau to a four-star. I suspect you would find a wide 
range of support on this committee for that, perhaps some who 
would even go further and make them a permanent member of the 
Joint Chiefs.
    But let's talk a little bit about the process behind that. 
Four stars today are recommended by the--to have a role by the 
secretary of defense and less formal roles by others and, of 
course, come to the nomination of the President and his 
discretion.
    National Guard Bureau chief is a little bit different, as 
you know. It is really selected from a list of recommendations 
by the independently appointed heads of the guards in the 
various states.
    So did the commission also consider, reject or not even 
contemplate perhaps, if you are going to elevate them, would 
you change the way in which they are nominated, as well?
    General Punaro. We felt like, as you know from your 
previous subcommittee chair, in dealing with these flag and 
general offices over the years, we felt like that was something 
that if the Congress was to look seriously at our 
recommendation and look at the duties he is performing, you 
would have to consider changing the process by which the 
individual is picked.
    We felt like that was something that you all would have 
more wisdom than we had about how to best go about doing that. 
We did look at in great detail, because we knew this was a very 
important issue for the committee and for the sponsors of the 
act, we went to the General Accounting Office for their 
detailed analysis of the four-star positions.
    We commissioned our own research by the federal research 
division of the Library of Congress and, Mr. Chairman, I 
believe you have that report for the record, to look at all 
four stars, the criteria. And when we did that analysis and we 
looked at the duties that the chief of the National Guard 
Bureau is currently performing, we felt very strongly that it 
did match up with and equated to four-star responsibilities.
    And should the Congress require him to do those duties as 
part of his charter, he should be elevated to four-star and I 
believe you would want to adjust the process by which the 
individual was selected and, furthermore, you want to make sure 
that it wasn't just--that the Air Guard and the Army Guard both 
would be able to compete for that position.
    Mr. McHugh. Thank you.
    Second point, also raised by the gentleman from Texas, 
NORTHCOM. Obviously, this is the complex and delicately 
balanced or perhaps should be more delicately balanced 
circumstance.
    The commission, as you discussed in your response to Mr. 
Ortiz, indeed, in your mind, should play a more active role, 
become more of an advocate, if you will, for those civil 
support programs.
    And, yet, as I believe I understand the recommendations, 
you would still hold their direct responsibilities to basic 
military Title 10 and reserve authority for the governors. Is 
that correct?
    General Punaro. That is correct, but we also go further 
than that. We believe that we have got to get away from these 
stovepipes.
    The three major categories for the use of the Guard and the 
Reserve, you have state active duty, you have Title 32, where 
the Federal Government--state active duty is run by the 
governor, paid by the state.
    Title 32 is run by the governor, paid by the Federal 
Government. Title 10 is run by the President and the secretary 
of defense, paid by the Federal Government.
    We believe that we need to get away from these stovepipe 
categories and have situations that are preplanned in advance 
and NORTHCOM would be the command that would do this 
coordination and preplanning, where the governor would have 
access to and be able to utilize the guard in any capacity, as 
well as those federal forces that have been given to the 
governor for that operation, where he could direct those 
forces, and then you wouldn't have----
    Mr. McHugh. Can I? Because I have got just a very few 
seconds and I appreciate that and maybe we can also submit some 
for the record.
    But is there a problem, a conflict, a challenge for 
NORTHCOM to be recommending and prioritizing the duties over 
which it will have no command and control authority?
    General Punaro. But they will. They are the command that 
would, if the President federalized the Guard and Reserve for 
any domestic response, they would have it and, therefore, they 
should be the ones that are identifying the requirements for it 
and advocating the requirements for it.
    Mr. McHugh. Thank you, Mr. Chairman.
    The Chairman. Thank the gentleman.
    Before I call on Mr. Taylor, would you clarify for both Mr. 
Taylor and me the manner in which the head of the National 
Guard Bureau is chosen today?
    General Punaro. Mr. Chairman, I think Mr. McHugh accurately 
described how he is picked today.
    I have to fess up and tell you I would hesitate to put on 
the record in precise terms exactly how that occurs, because I 
am not as familiar with it as I should be.
    It is done by this independent review group. There are 
nominations from the states. It is ultimately selected by the 
President. It is one of the few that is not totally on the 
office of the secretary of defense.
    But I believe if the Congress required the duties that we 
believe are the appropriate duties for the chief of the Guard 
Bureau and elevate him to four-star, I think you would need to 
look very carefully at the selection process and make it 
similar to the way the other four-star selections occur.
    The Chairman. Very good. Thank you.
    Mr. Taylor.
    Mr. Taylor. Thank you, Mr. Chairman.
    It is my understanding that General Blum was both 
interviewed and selected by Secretary Rumsfeld, which proves 
that even Don Rumsfeld made one good decision during his six 
years.
    A couple of things on the vehicles. I very much agree with 
the gentleman from California wanting accountability for where 
those vehicles are.
    I would be willing to wager a state dinner that the 
Administration has already made plans to give those vehicles 
away to the Iraqis or someone in theater. But if we want to 
pass legislation to say bring them back, I would vote for it in 
a heartbeat.
    I very much appreciate all your recommendations, except for 
one. Obviously, number 14 gives me some heartburn, but you are 
exactly on track with regard to there is no clear delineation 
of who is going to take over in this country in the event of a 
manmade or a natural disaster and we saw that firsthand.
    The one part that you have raised that obviously needs 
addressing is the mentality with the Nation tells the states, 
``You are on your own for the first 72 hours,'' because there 
have been events and there will be events that are so horrible 
that the states will be incapable of doing that.
    In particular, we were reminded that about 40 percent of 
all the guardsmen, of the Louisiana Guard and 40 percent of the 
Mississippi Guard happened to have been in Iraq the day of 
Katrina.
    And so those states did not even have the full complement 
of their own people to call on.
    The second thing, as far as rental equipment, my experience 
was--and this is going to the local engineering unit--they have 
left every stick of equipment in Iraq. They were told it would 
be replaced. It wasn't.
    By the time the storm hit, to your point, 60 percent of it 
still--I am sorry--they had 60 percent. But the idea that you 
can go out and rent it was flawed.
    Again, I don't think anyone could have thought this 
through, because suddenly the military is in a bidding war with 
civilian contractors who, by the way, have a government cost-
plus contract. So they can pay as much as they want for that 
bulldozer, knowing that they are going to get 10 percent over 
the cost of that and now the military finds themselves in a 
bidding war for the same stick of equipment that they could 
have bought in the normal order of process.
    So I think you have raised some excellent points about the 
need to replace this equipment now, do it in an orderly manner 
that is hopefully to the best cost benefit to the Nation, and 
it has got to be on hand, as you said, that minute when 
something happens.
    And I don't think our Nation has addressed that. I very 
much appreciate your comments when you say we need to decide on 
this whole homeland security thing, whether or not it is going 
to be the National Guard's mission, homeland security, and my 
thoughts fall with it ought to be a National Guard mission.
    Quite frankly, we saw how ineffective a political 
appointee, whose only previous job experience was the head of 
the Arabian Horse Association, in his role as trying to run 
FEMA. You look at his e-mails, the guy is worried about did he 
have the right color shirt on.
    You look at his e-mails, he is ordering state dinners on 
his government credit card, while local communities had 
resorted to police sanctioned looting over the food stores that 
remained in order to feed the local population.
    There is no doubt in my mind that ought to be a National 
Guard mission. So again, your point was to raise questions. It 
is Congress' job to provide solutions, but I very, very much 
appreciate such a distinguished panel raising these questions, 
because it is going to happen again.
    The one thing I would ask is did you look at--I never felt 
like all the resources that were available to us were used in 
Katrina and the statistic is about 52 percent of all Americans 
live in a coastal community.
    So, therefore, if it is a natural disaster or a manmade 
disaster, New York, Los Angeles, San Francisco, New Orleans, it 
is probably going to be at a waterfront community and I don't 
think we have an adequate plan to use maritime resources for 
that. For example, to bring in barge loads of fuel by water 
instead of truckloads of fuel over bridges that have been 
destroyed or to bring information floating hospitals, bring in 
floating barracks.
    To what extent, if any, did your commission take a look at 
that?
    General Punaro. Again, you have pointed out why NORTHCOM 
has not got the proper plans. You can't plan at the 100,000 
foot level. You have to plan in the very specific detail that 
you just identified.
    We should know in a given scenario, do we need the comfort 
or the mercy or are we going to use barges and where are we 
going to get them from. And, by the way, this can be done by 
the Department of Homeland Security and the Department of 
Defense.
    We have the best planners in the world. They are not doing 
it.
    Mr. Taylor. That was my follow-up question. You saw no 
evidence that 19 months after the storm, that they have taken 
the first step to do that.
    General Punaro. They have had a lot of meetings. They have 
talked to each other extensively. NORTHCOM, under Admiral 
Keating, has done precisely what the leadership in the 
Department of Defense wanted him to do, which is develop high 
level contingency plans, but please don't ever do anything that 
might get the Department of Defense more involved in protecting 
the homeland, because it might cost us some money.
    So they have written the job descriptions and written the 
definitions in a way to make sure that see no evil, hear no 
evil, say no evil, and that is the problem.
    NORTHCOM, DOD and DHS all have described a very narrow 
sandbox. They stay in their sandbox and we never get everybody 
together for planning and coordination, and that has got to 
happen. If it doesn't happen, again, we are right now today, 
for the 15 planning scenarios that the Department of Homeland 
Security has identified and everybody in government has agreed 
to that we have got to deal with, we do not have--we are not 
fully prepared for some, we are not adequately prepared for 
some, and we are totally unprepared for others.
    And the planning and coordination that has to involve the 
National Guard, the governors, DOD, Centers for Disease 
Control, FEMA, it is not happening.
    Mr. Taylor. Thank you, again, for 19 of your 20 
recommendations.
    General Punaro. Right.
    The Chairman. Before I call on Mr. Jones, let me mention 
that my very own Missouri National Guard is planning for the 
unthinkable. Back in 1811, there was the New Madrid Fault 
earthquake.
    Fortunately, that part of Missouri, that part of the 
country was not well populated and even the Mississippi River 
ran backward at that time. And to Missouri National Guard's 
credit, and hopefully it never comes to pass and I doubt if it 
will in our lifetime, are establishing various communication 
units that should that horror come to pass, that tragedy come 
to pass, that there will be a National Guard response at least 
regarding the communications from A and B and C, knowing what 
is going on in that area.
    Mr. Taylor asked for unanimous consent, am I correct?
    Mr. Taylor. Thank you, Mr. Chairman.
    Mr. Chairman, I would like to ask unanimous consent that 
several letters from different organizations in support of H.R. 
718, the ``Guard Empowerment Act,'' be included for the record.
    The Chairman. Without objection. Thank the gentleman.
    [The information referred to can be found in the Appendix 
on page 119.]
    The Chairman. Mr. Jones.
    Mr. Jones. Mr. Chairman, thank you very much.
    General, I want to thank you, as everyone else has done, 
you and the commission and the staff for putting together this 
excellent report, which is an recommendation to this Nation, as 
well as the Congress. I look forward to carefully looking 
through the report and the recommendations.
    I can't help but ask this one question. I only have one or 
two.
    You made mention that before the report came out or maybe 
at the time it came out, that you were at the Pentagon and two 
generals asked you, ``Did you ask the right questions?''
    Do you think there is still--there shouldn't be--but maybe 
some type of an attitude problem with how certain individuals 
at the Department of Defense look at the guard?
    It should not be, because they have been the real heroes, 
along with the active duty in Iraq and Afghanistan, there is no 
question about that. But do you still sense that there is a 
mindset, so to speak, that maybe the guard is important, but 
maybe the guard can wait?
    I am not just talking about equipment, but I am talking 
about you mentioned policies that need to be reviewed. It is a 
different world we all live in as it relates to the guard and 
their role, both civilian role, as well as warfighters.
    Do you think there still maybe needs to be some type of 
attitude adjustment?
    General Punaro. Yes, I do, but let me make it very specific 
so we don't put people on report that shouldn't be put on 
report.
    I don't see this as the highest levels of the Pentagon. I 
certainly don't see it with General Pace or Secretary Gates. 
They are extremely forward-leaning in the saddle on the Guard 
and Reserve matters and particularly wanting to work with this 
committee on these recommendations and the Empowerment Act.
    The Air Force has traditionally been very, very supportive 
of the Guard and Reserve and integrated them and done their 
best.
    Let's be candid. We all know it. This is an Army issue, for 
the most part, in terms of giving the proper respect, giving 
the proper coordination. And it has been a challenge. It is not 
unique to the current time we are in. We have seen it at 
various peaks and valleys and that is why I think the Guard 
Empowerment Act is so important.
    It will put the guard in the position where it is not 
dependent on different personalities either on the civilian or 
the military side, particularly in the Department of the Army.
    But, yes, sir, there still are those that do not want to 
give the Guard and Reserve the respect that they--not that they 
deserve, but that they have earned, 590,000 have gone to 
combat.
    And in our commission, I felt we would run into somebody 
somewhere that would say they didn't do a very good job, but we 
haven't found one person to say they have not performed in a 
magnificent fashion.
    Mr. Jones. General, thank you.
    Mr. Chairman, I know that this committee, under your 
leadership and Mr. Hunter, as well, that we will do what is 
right to give the guard the proper respect and equipment and 
give them what they need.
    And I would just say, again, as you said, General, I am 
going to be repetitious for one moment, the guard, as well as 
active duty, they are the real heroes in this war in Iraq and 
Afghanistan and thank you for what you and your staff have done 
with this report.
    I yield back.
    The Chairman. Thank the gentleman.
    General Punaro, what you and your commission have done is 
just yeoman's work and we will not be able to thank you 
sufficiently and we appreciate your testimony, as well as the 
subsequent work that we will do together.
    Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    General, we have had some problems in Maryland with regard 
to recruiters, and one of the things that I noted was that 
there is a GAO report of last fall, August 2006, to be precise, 
that recruiting improprieties have dramatically increased 
throughout the Department of Defense.
    Specifically between fiscal years 2004 and 2005, service 
reports identified incidents of recruiter wrongdoing having 
escalated from 4,400 cases to 6,600 cases.
    Meanwhile, criminal cases doubled from approximately 30 
cases to 70 cases. GAO further found that DOD has not 
established an oversight framework that includes guidance 
specifically requiring the armed services to maintain and 
report data on recruiter irregularities or even criteria for 
characterizing the irregularities that occur.
    Can you comment on the trends regarding recruiter 
impropriety in both the Army and Air National Guard and have 
you found these incidents to be increasing or decreasing and 
what types of incidents are being reported?
    As I said, in Baltimore, we have had some major problems 
and disservice being done to those young people who wanted to 
become a part of the guard. Commitments were being made to 
them, telling them that they would not be going to Iraq and the 
next thing you know, they are on the front line and all kinds 
of things and it really gives us a lot of heartburn, because I 
think it makes it more difficult to recruit.
    General Punaro. Yes, sir. That was not something that we 
looked at specifically, recruiter misconduct, but I would tell 
you, as a general observation, because this has been true in 
other times when recruiting has been increasingly more 
difficult.
    If you go back and look at various points in the last 20 or 
30 years, when recruiting gets more difficult, the incidences 
of malfeasance and recruiter salesmanship and promising things 
that don't actually come true does go up.
    The thing that worries us when we look at the recruiting 
and the retention is particularly as it relates to the Guard 
and Reserve, the snapshots they give are just only snapshots in 
time.
    So we kind of looked at sort of the trends and the trends 
we see are not good in terms of the propensity to enlist, the 
family support, the employer support, the number of prior 
service personnel that we really need in the Guard and Reserve 
is less and less.
    So it doesn't surprise me and particularly if you look at 
the amount of money from 2004 to 2005, we went from roughly 
$500 million spending on recruiting and retention in the Army, 
the Army Reserve and Army Guard, to over $2 billion, showing 
you how much more difficult it is to get people to come in all 
of the components.
    So it doesn't surprise me, as someone that has looked at 
this over the years, that the incidences of problems with 
recruiters is going up.
    Certainly, the department needs to get on top of it, 
because that can have a very corrosive effect, as you point 
out, on future recruiting. But we did not, as a commission, 
look into that specifically.
    Mr. Cummings. Just one other question. I don't know whether 
this comes under your purview or not.
    But when the Government Reform Committee did a hearing at 
Walter Reed, a young man, a sergeant, came up to me who had 
been injured and he talked about how it seemed like the 
enlisted folk--how did he put it--the folk who were not in the 
guard got service and better service than guys who were in the 
guard.
    Are you following me?
    General Punaro. Yes, sir.
    Mr. Cummings. And he was very upset. As a matter of fact, 
it became a major story on National Public Radio (NPR). They 
actually interviewed this guy.
    Have you heard stories like that? He just felt like he was 
just like put on the back burner and he felt like it was just 
very, very unfair. And, by the way, our office was able to help 
him get a Purple Heart today. He got it this morning at 9.
    I am just curious.
    General Punaro. Certainly, we have a subcommittee that 
Patty Lewis, with Karen Heath as the lead staff that is looking 
into the healthcare for Guard and Reserve, looking into 
transition.
    It is much more challenging for the Guard and Reserve when 
they demobilize, because most of them are not located near 
major military treatment facilities and getting the kind of 
care that they need.
    So we have heard some anecdotes similar to the one that you 
have described, but they were more related to when they get 
back out in their communities, where do they go for post-
traumatic stress syndrome treatment, where do they go for other 
problems that have come up by virtue of their deployment, now 
that they are demobilized and back in the communities.
    We haven't run across anything of the nature that you 
identified at Walter Reed, but that would be part of our 
broader look at healthcare for Guard and Reserves, which we 
will report on in January 2008.
    Mr. Cummings. Thank you very much.
    The Chairman. The gentleman from South Carolina, Mr. 
Wilson.
    Mr. Wilson. Thank you, Mr. Chairman.
    And, General, thank you for being here, and I particularly 
appreciate that you have brought a fellow commission member, 
Secretary Ball, who is a highly respected citizen of South 
Carolina.
    Additionally, I particularly appreciate of your efforts and 
the Guard and Reserves. I served 3 years in the reserves, 28 
years in the guard. The reason I did is because I saw the 
opportunities of training. I saw the opportunities of working 
with people who I found to be the most competent and patriotic 
people in the community.
    In fact, it is Guard members and Reserve members that 
influenced my sons, three, who are now members of the Army 
National Guard. My one son has sort of followed Secretary Ball, 
a bit off track. He is a member of the--a doctor in the Navy.
    But, again, it is because they met guard members and I know 
firsthand the guard is prepared domestically for domestic 
terrorism when it occurs again. I have been there for the 
hurricane recovery, the snow emergencies, the ice storms, the 
floods, the tornadoes, the civil disturbances.
    And then we have a historian as chairman and, of course, 
here are members that--we need to be prepared in South Carolina 
for earthquakes. The great earthquake of August 31, 1886, was 
in Charleston and I want to assure the chairman that the 
National Guard is prepared for earthquakes on the east coast of 
the United States.
    In terms of overseas deployment, I am grateful that one of 
my sons was field artillery, retrained as military police (MP) 
to serve in Iraq for a year. Another son has served in Egypt.
    My unit, the 218th, is being prepared right now for 
training and service in Afghanistan. And so they are at Camp 
Shelby receiving the training they need, in Congressman 
Taylor's home state.
    As I look at this, the National Guard Association has 
commended the commission for recommending the four-star status 
of the National Guard Bureau chief.
    Additionally, I support very much your recommendation for 
senior status within NORTHCOM.
    What would be the rationale for these two very good points?
    General Punaro. Sir, thank you. And, obviously, I tried to 
talk Commissioner Ball into taking a few bullets up here at the 
witness table, but he wanted to stay behind and kick my chair 
when he thought I was going to stray off.
    Mr. Wilson. See how bright he is? Look at that.
    General Punaro. And your son's service, obviously, we all 
appreciate.
    Northern Command, the rationale for recommending that 
either the commander or the deputy commander at Northern 
Command come from the Guard or Reserve ranks is because the 
fundamental mission of Northern Command is the defense of the 
homeland.
    The people that have the expertise, as you point out, that 
know the territory, that know the two million first responders 
in the United States of America, the firefighters, the police, 
the medical personnel, they know the governors, they know the 
county commissioners, they know the local mayors, they know the 
territory, they should have the lead for homeland defense, just 
like overseas the U.S.-European Command or the U.S. Pacific 
Command, they know the territory.
    They know their responsibilities. The active forces should 
have the lead for that and the Guard and Reserve should 
augment, reinforce overseas as they are doing now.
    Here in the homeland, however, we should give the primary 
responsibility and the lead to the Guard and Reserve and the 
active component should come in behind and augment, reinforce 
and work for the Guard and Reserve.
    That is very difficult for the active component. They do 
not like to think that a guard person or a reserve person could 
be in command of an active duty person.
    By the way, in the field, it happens every day. This is 
Washington. So at Northern Command, which is really more of a 
functional command than it is a combatant command, they don't 
have sufficient expertise within the active duty personnel. 
They don't have the relationships. They don't have the command 
and control on the ground awareness and we ought to use the 
strengths that we have in this Nation found in the Guard and 
Reserve.
    For example, you will find in Dallas-Fort Worth the head of 
emergency management is a lieutenant colonel in the reserves. 
Why don't we utilize those skills?
    So our recommendation for Northern Command is we have got 
to morph that command into a Guard and Reserve command with the 
lead responsibility for identifying the requirements for 
homeland defense and when we need to have an operation, to be 
in charge of that operation.
    And I think you will find--and, by the way, the head of 
Northern Command, he ought to go meet the governors, because 
that is his area of responsibility, just like in the Pacific 
Command, when Admiral Keating leaves Northern Command today at 
noon and goes out to the Pacific Command, the first thing he is 
going to do is go meet all the heads of state.
    I am not even going to ask the question of how many 
governors the previous commanders of Northern Command went out 
to their states and their state capitols and met them.
    And so that is why we think the Northern Command--and, by 
the way, the components, each of the service components, the 
Army component, the Marine component, the Air Force component 
of Northern Command ought to be headed by a Guard or Reserve 
and most of the billets ought to be Guard or Reserve.
    So that is our recommendation on the Northern Command.
    Mr. Wilson. Thank you, Mr. Chairman.
    The Chairman. I appreciate the gentleman mentioning 
Secretary and Commissioner Will Ball. Our family will always be 
appreciative of the fact that he named my late wife Susie as 
sponsor of the submarine USS Jefferson, certainly one of the 
highlights of our family's memory.
    Secretary Ball, we thank you.
    Mr. Taylor has a question.
    Mr. Taylor. Thank you, Mr. Chairman.
    General Punaro, I was just curious if you had the 
opportunity to brief our counterparts in the Senate yet and if 
you have, knowing that whatever efforts we try to take to enact 
this into law would have to be in conjunction with them, how 
did you feel their reaction to your report was?
    General Punaro. That is a tough question.
    Mr. Taylor. You worked over there for a long time. You can 
read the body language.
    General Punaro. We made sure and we felt like being up 
front with this committee as we have been, the Congress was our 
customer. You all created the commission. Our report was to you 
all. So we have kept the members of the committee, the members 
of the Guard Empowerment Act, the other stakeholders fully 
briefed, and we have made the rounds in the Senate.
    We find, generally, Mr. Taylor, that when we talk about the 
problems and go through the problem set, you get a lot of head 
nods, yes, yes, yes, yes. We find that in the Senate. We find 
that at DHS. We find it in the Department of Defense. We find 
it at Northern Command.
    I do know for a fact that the principal sponsors of the 
Guard Empowerment Act in the Senate, Senators Leahy and Bond, 
certainly have well articulated the fact that they thought the 
commission should have gone further than we did, particularly 
as it relates to recommending that the head of the Guard Bureau 
be a member of the Joint Chiefs of Staff.
    Mr. Taylor. That old tricky number 14 again.
    General Punaro. And so I would hesitate to characterize 
where the Senate Armed Services Committee is, other than to say 
we have kept everybody fully briefed and fully informed.
    And, again, I think our position is we have identified the 
problems, we have put forth some recommendations. I have, as 
you well know, tremendous confidence in the committee, this 
committee and the sister committee.
    You all will talk to the--you will look at our 
recommendations, you will look at the Guard Empowerment Act and 
talk to those stakeholders, you will talk to the Department of 
Defense, you will talk to other vested interests and you will 
come up with probably even better recommendations and solutions 
than the ones we have identified.
    So the reason I am so optimistic, Mr. Chairman, is because 
I do think, for the first time, we see a very good consensus on 
these are the real problems that need to be fixed.
    I would say even DHS, George Foresman, the undersecretary 
for preparedness, probably is as knowledgeable a guy as we have 
ever had in government on that. He understands that these 
problems have got to be fixed.
    Unfortunately, he is kind of in a straightjacket a little 
bit just like Admiral Keating at NORTHCOM was in a 
straightjacket a little bit. Paul McHale, who served on this 
committee, was in a straightjacket a little bit.
    So our thing is let's get them all out of their 
straightjackets, get them all sitting down at the table all at 
the same time, let's get this worked out and let's get 
everybody on the same team, because the number one mission is 
protecting the lives, the property and economy of our citizens 
here at home.
    Mr. Taylor. Thank you very much.
    Thank you, Mr. Chairman.
    The Chairman. Thank the gentleman.
    Special thanks to you, General Punaro, for your excellent 
testimony and for the wonderful work that your commission has 
done. I know full well of the efforts that you and your 
commissioners have given.
    I know there is another report due some months from now. We 
look forward to that. However, what you have offered us will be 
excellent food for thought for the upcoming markup that this 
committee will face in the very near future.
    So with that, we thank you for your testimony.
    As has just been indicated, we have a series of votes 
upcoming.
    And if there is no further business, with appreciation, we 
thank you.
    General Punaro. Thank you, Mr. Chairman.
    [Whereupon, at 12:26 p.m., the committee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                             March 23, 2007

=======================================================================

      
?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 23, 2007

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T7321.001
    
    [GRAPHIC] [TIFF OMITTED] T7321.002
    
    [GRAPHIC] [TIFF OMITTED] T7321.003
    
    [GRAPHIC] [TIFF OMITTED] T7321.004
    
    [GRAPHIC] [TIFF OMITTED] T7321.005
    
    [GRAPHIC] [TIFF OMITTED] T7321.006
    
    [GRAPHIC] [TIFF OMITTED] T7321.007
    
    [GRAPHIC] [TIFF OMITTED] T7321.008
    
    [GRAPHIC] [TIFF OMITTED] T7321.009
    
    [GRAPHIC] [TIFF OMITTED] T7321.010
    
    [GRAPHIC] [TIFF OMITTED] T7321.011
    
    [GRAPHIC] [TIFF OMITTED] T7321.012
    
    [GRAPHIC] [TIFF OMITTED] T7321.013
    
    [GRAPHIC] [TIFF OMITTED] T7321.014
    
    [GRAPHIC] [TIFF OMITTED] T7321.015
    
    [GRAPHIC] [TIFF OMITTED] T7321.016
    
    [GRAPHIC] [TIFF OMITTED] T7321.017
    
    [GRAPHIC] [TIFF OMITTED] T7321.018
    
    [GRAPHIC] [TIFF OMITTED] T7321.019
    
    [GRAPHIC] [TIFF OMITTED] T7321.020
    
    [GRAPHIC] [TIFF OMITTED] T7321.021
    
    [GRAPHIC] [TIFF OMITTED] T7321.022
    
    [GRAPHIC] [TIFF OMITTED] T7321.023
    
    [GRAPHIC] [TIFF OMITTED] T7321.024
    
    [GRAPHIC] [TIFF OMITTED] T7321.025
    
    [GRAPHIC] [TIFF OMITTED] T7321.026
    
    [GRAPHIC] [TIFF OMITTED] T7321.027
    
    [GRAPHIC] [TIFF OMITTED] T7321.028
    
    [GRAPHIC] [TIFF OMITTED] T7321.029
    
    [GRAPHIC] [TIFF OMITTED] T7321.030
    
    [GRAPHIC] [TIFF OMITTED] T7321.031
    
    [GRAPHIC] [TIFF OMITTED] T7321.032
    
    [GRAPHIC] [TIFF OMITTED] T7321.033
    
    [GRAPHIC] [TIFF OMITTED] T7321.034
    
    [GRAPHIC] [TIFF OMITTED] T7321.035
    
    [GRAPHIC] [TIFF OMITTED] T7321.036
    
    [GRAPHIC] [TIFF OMITTED] T7321.037
    
    [GRAPHIC] [TIFF OMITTED] T7321.038
    
    [GRAPHIC] [TIFF OMITTED] T7321.039
    
    [GRAPHIC] [TIFF OMITTED] T7321.040
    
    [GRAPHIC] [TIFF OMITTED] T7321.041
    
    [GRAPHIC] [TIFF OMITTED] T7321.042
    
    [GRAPHIC] [TIFF OMITTED] T7321.043
    
    [GRAPHIC] [TIFF OMITTED] T7321.044
    
    [GRAPHIC] [TIFF OMITTED] T7321.045
    
    [GRAPHIC] [TIFF OMITTED] T7321.046
    
    [GRAPHIC] [TIFF OMITTED] T7321.047
    
    [GRAPHIC] [TIFF OMITTED] T7321.048
    
    [GRAPHIC] [TIFF OMITTED] T7321.049
    
    [GRAPHIC] [TIFF OMITTED] T7321.050
    
    [GRAPHIC] [TIFF OMITTED] T7321.051
    
    [GRAPHIC] [TIFF OMITTED] T7321.052
    
    [GRAPHIC] [TIFF OMITTED] T7321.053
    
    [GRAPHIC] [TIFF OMITTED] T7321.054
    
    [GRAPHIC] [TIFF OMITTED] T7321.055
    
    [GRAPHIC] [TIFF OMITTED] T7321.056
    
    [GRAPHIC] [TIFF OMITTED] T7321.057
    
    [GRAPHIC] [TIFF OMITTED] T7321.058
    
    [GRAPHIC] [TIFF OMITTED] T7321.059
    
    [GRAPHIC] [TIFF OMITTED] T7321.060
    
    [GRAPHIC] [TIFF OMITTED] T7321.061
    
    [GRAPHIC] [TIFF OMITTED] T7321.062
    
    [GRAPHIC] [TIFF OMITTED] T7321.063
    
    [GRAPHIC] [TIFF OMITTED] T7321.064
    
    [GRAPHIC] [TIFF OMITTED] T7321.065
    
    [GRAPHIC] [TIFF OMITTED] T7321.066
    
    [GRAPHIC] [TIFF OMITTED] T7321.067
    
    [GRAPHIC] [TIFF OMITTED] T7321.068
    
    [GRAPHIC] [TIFF OMITTED] T7321.069
    
    [GRAPHIC] [TIFF OMITTED] T7321.070
    
    [GRAPHIC] [TIFF OMITTED] T7321.071
    
    [GRAPHIC] [TIFF OMITTED] T7321.072
    
    [GRAPHIC] [TIFF OMITTED] T7321.073
    
    [GRAPHIC] [TIFF OMITTED] T7321.074
    
    [GRAPHIC] [TIFF OMITTED] T7321.075
    
    [GRAPHIC] [TIFF OMITTED] T7321.076
    
    [GRAPHIC] [TIFF OMITTED] T7321.077
    
    [GRAPHIC] [TIFF OMITTED] T7321.078
    
    [GRAPHIC] [TIFF OMITTED] T7321.079
    
    [GRAPHIC] [TIFF OMITTED] T7321.080
    
    [GRAPHIC] [TIFF OMITTED] T7321.081
    
    [GRAPHIC] [TIFF OMITTED] T7321.082
    
    [GRAPHIC] [TIFF OMITTED] T7321.083
    
?

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             March 23, 2007

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T7321.084
    
    [GRAPHIC] [TIFF OMITTED] T7321.085
    
    [GRAPHIC] [TIFF OMITTED] T7321.086
    
    [GRAPHIC] [TIFF OMITTED] T7321.087
    
    [GRAPHIC] [TIFF OMITTED] T7321.088
    
?

      
=======================================================================


             QUESTIONS AND ANSWERS SUBMITTED FOR THE RECORD

                             March 23, 2007

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. MCHUGH

    Mr. McHughes. ``The Commission recommends that the grade of the 
person serving as Chief of the National Guard Bureau be increased from 
three stars to four stars. The Commission, however, was silent on 
whether or not there should be a change in the manner in which the 
Chief of the National Guard would be appointed to the highest military 
grade.''
    Given the Commission's recommendation not only regarding the 
increased grade, but also the commission findings about the increased 
responsibility of the Chief, NGB, should the Secretary of Defense and 
the Chairman of the Joint Chiefs have a statutory role in the 
appointment process for the Chief, NGB?
    General Punaro. Section 10502(a) of Title 10 mandates that the 
Chief of the National Guard Bureau is appointed by the President (with 
advice and consent of the Senate) from a pool of qualified officers 
recommended by their governors. When selecting from the pool of 
nominated officers, the President will benefit from consultation with 
the Secretary of Defense and the Chairman of the Joint Chiefs. Their 
statutory role as advisors to the President on defense matters is 
already established, and the Commission has not taken a position as to 
whether a statutory change is necessary on this point. The Commission 
did note, however, that the process for nominating and appointing the 
CNGB may need to be changed if the NGB is made a joint activity of the 
Department of Defense, rather than a joint bureau of the Army and Air 
Force.
    Mr. McHughes. ``The Commission's report critiques U.S. Northern 
Command (NORTHCOM) for not adequately promoting, or organizing for, or 
planning for its mission to provide support to civil authorities. The 
report also recommends that the NORTHCOM commander should be an 
advocate for civil support programs across the entire budgeting 
planning and execution process. Yet the Commission's report also notes 
that NORTHCOM's civil support role would be largely confined to 
providing federal Title 10 support and not directly supporting, 
coordinating or commanding any National Guard forces, which would 
remain under the control of the state governor.''
    So what civil support missions and requirements is NORTHCOM to 
advocate for? Those civil support requirements validated by DOD? Those 
advocated by the National Guard Bureau? Those of Homeland Security?
    General Punaro. In its March 1 report, the Commission recommends 
that the Department of Homeland Security generate civil support 
requirements for the Department of Defense. We recommend that DHS 
generate these requirements through a combined effort that will take 
advantage of DHS's insight into the preparedness capabilities present 
in the rest of the federal government, as well as in state and local 
government.
    The requirements generated by DHS would then be validated as 
appropriate by DOD through its normal requirements process. The 
Commission believes that NORTHCOM--as the unified command with the 
responsibility for Title 10 civil support missions on the continental 
United States--should first play an important role in determining 
whether the requirements generated by DHS should be validated. And 
second, once the appropriate requirements have been validated, NORTHCOM 
should advocate on their behalf in the DOD requirements process.
    NORTHCOM should advocate for those civil support requirements it 
believes necessary to carry out its mission pursuant to plans and 
programs, whether those requirements are initiated by NORTHCOM, DHS, or 
the National Guard Bureau. As an additional matter, the Commission 
believes that the Council of Governors will play an important role in 
advising DOD on state requirements, as transmitted through DHS, during 
the requirements generation process.
    Mr. McHughes. Is it wise for NORTHCOM to promote the support to 
civil authorities' missions as a priority equal to or above its other 
missions when NORTHCOM will not likely have command and control of the 
operations that execute the support to civil authorities' mission?
    General Punaro. Regardless of who directs the response to a 
significant incident, NORTHCOM will play a vital role. NORTHCOM 
currently views homeland defense as its primary mission and civil 
support as a ``lesser-included'' mission. This is consistent with DOD's 
policy of viewing civil support as a ``derivative'' or ``by-product'' 
of DOD's warfighting mission. In contrast, the Commission believes that 
homeland defense and civil support should collectively be considered 
NORTHCOM's primary mission.
    The Commission has recommended expanding the circumstances under 
which governors can direct all federal military assets operating in 
their states. The Commission envisions incorporating all military 
forces necessary to respond to a particular contingency in a state--
whether active duty, Guard, or Reserves--into the plans, training, and 
exercises for that response. As part of that planning, state and 
federal officials would work out under what conditions federal forces 
could be directed by state officials. When a crisis occurs, the 
governor could request that responding federal forces be placed under 
the operational control of the leading Guard officer, pursuant to those 
plans and protocols. The state's joint force headquarters with a 
federally certified commander would be the likely command and control 
element. This process could be launched through something as simple as 
a phone call, or formally, through a letter to the President. The 
Commission envisions this request being made just as a governor might 
request that the President declare that a major disaster exists in the 
state, opening the way for federal disaster assistance. The President 
would evaluate the request, with the assistance of the Defense 
Department, in much the same way that the Federal Emergency Management 
Agency advises the President on requests for disaster assistance. If 
the President agreed that this step was necessary, the President would 
place responding federal forces under the control of the governor. The 
President would retain formal command of those federal forces; they 
would remain under the administrative control of their respective 
services and be subject to posse comitatus and other restrictions. They 
would still be part of the federal military. The only difference would 
be that they would be subject to the direction and control of the 
governor acting through his or her designated military commander. There 
could also be pre-planned and pre-trained scenarios in which this 
assumption of control, by prior agreement of the President, could be 
``automatic.''
    The Commission sees no inconsistency between its view of civil 
support and the possibility of states directing the bulk of the 
responding farces. In the extraordinary event that an incident was 
``federalized'' with command and control vested in the President, the 
manpower and equipment acquired through this process would be the same.
    Mr. McHughes. Should NORTHCOM have operational control or even a 
role in civil support operations? If yes, what should that role be? 
Will you include this analysis in your final report?
    General Punaro. The Commission is analyzing this issue and will 
address it in its final report.

Enabling Duns-Hatted Command of Mixed Title 10 and Title 32 Forces

    ``The Commission's report recommends that efforts be made to expand 
the ability of governors to direct all federal military assets 
operating in their states. That certainly is one option for addressing 
the challenge of how to effectively coordinate mixed federal military 
forces (operating under Title 10) and state National Guard forces 
(under Title 32 or on state active duty) operating in the same 
geographic area.''
    ``I was surprised, however, to see that while the Commission made 
numerous recommendations for improving NORTHCOM's role in homeland 
defense and support to civil authorities, and for increasing 
dramatically the National Guard and Reserve component manpower at 
NORTHCOM, and to permit a National Guard officer to command NORTHCOM, 
there was no recommendation to improve NORTHCOM's ability to command, 
control and coordinate forces comprised of mixed federal military and 
state National Guard forces.''
    ``As the Commission's report notes, current law permits dual-hatted 
commands so that federal (Title 10) military officers can command non-
federalized National Guard units. The Commission also recommends 
further expansion of law to better enable National Guard officers to 
command mixed federal and state (Title 32) forces.''
    Mr. McHughes. Given the Commission's conclusions and 
recommendations aimed at improving the command, control and 
coordination of mixed Title 10 and Title 32 forces, did the Commission 
examine the course of action that would make the commander, NORTHCOM, 
and key personnel throughout NORTHCOM dual-hatted--that is 
simultaneously able to command, control sad coordinate Title 10 and 
Title 32 forces? If examined, what did the Commission conclude? If the 
Commission did not examine this coarse of action, what are the 
Commission's views with regard to making the commander NORTHCOM, and 
key personnel throughout NORTHCOM able to simultaneously command, 
control and coordinate mixed Title 10 and Title 32 forces?
    General Punaro. In its March 1 report, the Commission did not make 
a recommendation on this point. The Commission has not thoroughly 
examined giving federal military forces operational control over state 
or Title 32 status forces, and thus does not have a recommendation on 
its utility or advisability.
    Mr. McHughes. If a National Guard officer is to be the commander of 
NORTHCOM, should not that officer have the ability to command, control 
and coordinate mixed Title 10 and Title 32 forces in response to 
natural disasters and in connection with the full range of NORTHCOM's 
missions?
    General Punaro. The Commission has recommended that the commander 
or deputy commander of NORTHCOM should be either a National Guard or 
Reserve officer. The Commission did not make a finding or 
recommendation in its March 1 report on this point, but will continue 
to explore options on the command and control of military forces and 
will include any pertinent findings or recommendations in its final 
report.

                                  <all>

</pre></body></html>
